   D
                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor
   R
   A
   F                                                               ADMINISTRATION
   T




                     Office of Inspector General—Office of Audit




                                                                   ETA DID NOT USE COMPATIBLE DATA WHICH
                                                                   OVERSTATED THE EFFECTIVENESS OF ITS
                                                                   OVERPAYMENT DETECTIONS




                                                                                      Date Issued:   September 28, 2012
                                                                                   Report Number:      04-12-001-03-315
U.S. Department of Labor                                   September 2012
Office of Inspector General
Office of Audit                                            ETA DID NOT USE COMPATIBLE DATA WHICH
                                                           OVERSTATED THE EFFECTIVENESS OF ITS
                                                           OVERPAYMENT DETECTIONS
BRIEFLY…
Highlights of Report Number 04-12-001-03-315, issued
to the Assistant Secretary for Employment and Training.    WHAT OIG FOUND

WHY READ THE REPORT                                        The OIG found that ETA did not appropriately measure
                                                           the effectiveness of the states’ detection of
                                                           overpayments for state-funded benefits and EB
The Office of Inspector General (OIG) conducted a
                                                           because the measure did not use compatible data.
performance audit of the Employment and Training
Administration’s (ETA) measurement used to determine
                                                           Specifically, ETA did not include EB in the estimated
the effectiveness of Unemployment Insurance (UI)
                                                           detectable overpayments; however, it was included in
overpayment detection activities for state-funded
                                                           actual overpayments. ETA reported the states detected
benefits and Extended Benefits (EB). The UI program is
                                                           52.6 percent of estimated detectable overpayments but
designed to provide benefits to individuals out of work,
                                                           later determined this amount was actually 48.5 percent
generally through no fault of their own, for periods
                                                           — short of the ALP of 50 percent. Had ETA’s estimates
between jobs.
                                                           for overpayment detections included EB, the states
                                                           would have had to detect an additional $142 million to
Between April 1, 2007, and September 30, 2010, the UI
                                                           achieve the ALP. Furthermore, the data ETA used in
program paid $174 billion in state-funded benefits and
                                                           the measure was not always validated; therefore, ETA
EB to unemployed workers. ETA estimated that $9.4
                                                           could not ensure its reliability.
billion of this amount represented detectable
overpayments. ETA established an overpayment
detection measure (measure) which compared actual          In addition, ETA was not fully successful in getting
overpayments detected by the states to the overall         states to comply with Unemployment Insurance Public
estimated detectable overpayments. This measure            Letter 3-07, which requires states to perform cross
served as a control for ETA to use to assess the states’   matches with the National Directory of New Hires
overpayment detection activities. ETA expected states      (NDNH). Because the NDNH cross matches were not
to meet the Acceptable Level of Performance (ALP) for      properly done, the estimate of detectable overpayments
the measure, which was 50 percent. ETA also                may be understated.
established data validation activities to ensure the
reliability of the measure.
                                                           WHAT OIG RECOMMENDED
We previously reported that ETA did not measure the
effectiveness of improper payment detection activities     The OIG made six recommendations to the Assistant
for $126 billion in federally-funded emergency benefits.   Secretary for Employment and Training in the areas of
Using data provided by ETA, we had determined states       implementing an overpayment detection performance
detected only $1.3 billion (19 percent) of the estimated   measure for EB, updating the reporting system to
$6.9 billion in detectable overpayments from               isolate readily detectable overpayments, and improving
federally-funded emergency benefits.                       data validation.

WHY OIG CONDUCTED THE AUDIT                                ETA generally agreed with the recommendations.

We conducted the audit to determine if ETA
appropriately measured the effectiveness of
overpayment detections related to state-funded benefits
and EB.

READ THE FULL REPORT

To view the report, including the scope, methodology,
and full agency response, go to: http://www.oig.dol.gov/
public/reports/oa/2012/04-12-001-03-315.pdf.
                                                            U.S. Department of Labor – Office of Inspector General



  Table of Contents

Assistant Inspector General’s Report ............................................................................ 1

Objective — Did ETA appropriately measure the effectiveness of overpayment
            detections for state-funded and extended benefits? .............................. 3
           ETA did not appropriately measure the effectiveness of the states'

           overpayment detections for state-funded and extended benefits. ........................ 3'

           Finding 1— ETA did not use compatible data in its overpayment detection
                       measure. .......................................................................................... 4
           Finding 2 — ETA's efforts to ensure states' compliance with NDNH cross-
                       match requirements have not been fully successful. ........................ 5
           Finding 3 — ETA did not always ensure data used in the measure was
                       validated. .......................................................................................... 6

Recommendations ........................................................................................................... 8

Appendices
           Appendix A Background ..................................................................................... 13
           Appendix B Objective, Scope, Methodology, and Criteria .................................. 15
           Appendix C Acronyms ........................................................................................ 17
           Appendix D ETA Response to Draft Report ....................................................... 19
           Appendix E Acknowledgements ......................................................................... 27
   '
   '
   '




                                                                      Controls over the detection of UI overpayments
                                                                                        Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                    Controls over the detection of UI overpayments
                                      Report No. 04-12-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




September 28, 2012

                                Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
US Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

The Unemployment Insurance (UI) program is designed to provide benefits to
individuals out of work, generally through no fault of their own. In order to be eligible for
benefits, jobless workers must show that they were separated from work through no
fault of their own, met minimum length of time and wage requirements before they were
separated, and must be available for work. The program is administered at the state
level, but benefits are funded by both state and federal monies. Although each state
designs its UI program within the framework of federal requirements, the Employment
and Training Administration (ETA) is responsible for monitoring the states’ performance,
among other things. For this report, we assessed controls over UI overpayment
(overpayment) detection for state-funded benefits and extended benefits (EB). 1 We
previously reported that ETA did not measure the effectiveness of improper payment
detection activities for $126 billion in federally-funded emergency benefits. 2 Using data
provided by ETA, we had determined states detected only $1.3 billion (19 percent) of
the estimated $6.9 billion in detectable overpayments from federally-funded emergency
benefits.

We performed the audit to answer the following question:

         Did ETA appropriately measure the effectiveness of overpayment '
         detections for state-funded and extended benefits? '

Between April 1, 2007, and September 30, 2010, the UI program paid $174 billion in
state-funded benefits and EB to unemployed workers. ETA estimated that $9.4 billion of
this amount represented detectable overpayments. ETA established an overpayment
detection measure (measure) which compared actual overpayments detected by the
states to the overall estimated detectable overpayments. This measure served as a

  Since FY 2009, EB has been fully federally funded. Prior to that, EB funding was evenly split between state and
1

federal.
  Report Number 18-12-001-03-315, Recovery Act: ETA is Missing Opportunities to Detect and Collect Billions of
2

Dollars in Overpayments Pertaining to Federally-Funded Emergency Benefits, issued January 31, 2012

                                                                  Controls over the detection of UI overpayments
                                                          1                         Report No. 04-12-001-03-315
                                                         U.S. Department of Labor – Office of Inspector General


control for ETA to use to assess the states’ overpayment detection activities. ETA
expected states to meet the Acceptable Level of Performance (ALP) for the measure,
which is 50 percent. ETA also established data validation activities to ensure the
reliability of the measure.

The audit covered overpayments for state-funded benefits and EB reported between
fiscal years (FY) 2008-2010. Our work included tests of controls over both actual and
estimated detectable overpayment data reported by ETA and the states, and statistical
tests of this data for two states — Arkansas and Mississippi. We also sent survey
questionnaires to the remaining states regarding data validation and ETA oversight. Our
objective, scope, methodology, and criteria are detailed in Appendix B.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.


RESULTS IN BRIEF

We found that ETA did not appropriately measure the effectiveness of the states’
detection of overpayments for state-funded benefits and EB because the measure did
not use compatible data. ETA reported the states detected 52.6 percent of estimated
detectable overpayments. However, ETA later determined that this amount was actually
48.5 percent — short of the ALP of 50 percent. Furthermore, the data used in the
measure was not always validated; therefore, ETA could not ensure its reliability.

The overstatement of the states’ performance resulted when they reported EB in actual
overpayments detected and ETA did not include EB in the estimated detectable
overpayments. By excluding EB in the estimated detectable overpayments, ETA
compared data that was not compatible. Between April 1, 2007, and September 30,
2010, EB payments increased significantly — from $23 thousand to $7.4 billion. 3 Had
ETA’s estimates for overpayment detections included EB, the states would have had to
detect an additional $142 million to achieve the ALP of 50 percent. Subsequent to our
fieldwork, ETA modified its Overpayment Detection and Recovery Activities report (ETA
227) to distinguish EB overpayments from State UI, Unemployment Compensation for
Federal Employees (UCFE) and Ex-Servicemen (UCX) overpayments, and it plans to
develop a separate management information measure for EB.

We also noted that ETA was not fully successful in getting states to comply with
Unemployment Insurance Public Letter (UIPL) 3-07, which requires states to perform
cross matches with the National Directory of New Hires (NDNH). As of May 2012, ETA
reported that seven states either had not performed the cross match or had minor
3
    EB payments increased to $11.9 billion in FY 2011.

                                                                Controls over the detection of UI overpayments
                                                          2                       Report No. 04-12-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General


technical issues. Because the NDNH cross match were not properly done, the estimate
of detectable overpayments may be understated.

Finally, in each of the three fiscal years we reviewed, at least 71 percent of states did
not validate actual overpayment data, and ETA officials stated ETA regional offices
completed mandatory reviews of state’s BAM surveys, they did not always close these
reviews in the UI database. 4 ETA officials acknowledged the data validation issues we
identified, but said that the required changes to the BAM sample selection and database
management software, and states reported Information Technology (IT) resource
constraints are the most significant barriers. Without making improvements in these
areas, ETA cannot ensure the reliability of states’ reported overpayment data.
Subsequent to our fieldwork, ETA issued additional guidance to regional offices for
conducting data validation reviews for actual overpayment data.

We made six recommendations to the Assistant Secretary for Employment and Training
in the areas of implementing an overpayment detection performance measure for EB,
updating the reporting system to isolate readily detectable overpayments, and improving
data validation.

ETA generally agreed with the recommendations and stated it has been working
aggressively with states to address the issue of UI improper payments. ETA officials
also stated that actions to address findings and recommendations in the report have
either already been completed or are well underway. ETA’s response is included in its
entirety in Appendix D.


RESULTS AND FINDINGS

Objective — Did ETA appropriately measure the effectiveness of overpayment
            detections for state-funded and extended benefits?

          ETA did not appropriately measure the effectiveness of the states' overpayment
          detections for state-funded and extended benefits.

ETA did not appropriately measure the effectiveness of the states’ detection of
overpayments for state-funded benefits and EB because the data used for the
overpayment detection measure was not compatible, ETA did not ensure states
performed required cross matches with the NDNH to determine estimated detectable
overpayments, and data used in the measure was not always validated.




    The states’ BAM surveys estimate the rate and amount of overpayments in the UI program.
4



                                                                Controls over the detection of UI overpayments
                                                          3                       Report No. 04-12-001-03-315
                                                      U.S. Department of Labor – Office of Inspector General


Finding 1— ETA did not use compatible data in its overpayment detection
          measure.

ETA’s overpayment detection measure (measure) which compares actual
overpayments detected by the states to the overall estimated detectable overpayments
for ETA to assess the states’ overpayment detection activities, was flawed. Specifically,
ETA did not include EB in its estimated detectable overpayments. Consequently, ETA
missed opportunities for detecting $142 million in overpayments.

As illustrated below, ETA established a measure that compared actual overpayments
detected by the states to the overall estimated detectable overpayments as a control for
ETA to assess the states’ overpayment detection.

                                          Actual Overpayments Detected
          Overpayment Detection Measure = ------------------------------------------------ x 100
                                          Estimated Detectable Overpayments

However, states reported EB in actual overpayments detected and ETA did not include
EB in the estimated detectable overpayments. In times of low unemployment, EB are
generally negligible in relation to total benefits paid and will likely have little effect on the
measure. Unfortunately, with the significant upward spike in unemployment since April
2007, EB increased considerably, from only $23 thousand to more than $7.4 billion by
September 30, 2010 5.

ETA expected states to meet the ALP of 50 percent for the measure. Although ETA
initially reported the states’ detection rate was 52.6 percent, had EB overpayments been
included in the estimated detectable overpayments, the rate would have been
48.5 percent.

Similarly, in a previous audit 6 we found that ETA did not include overpayments related
to $126 billion in Emergency Unemployment Compensation (EUC) and Federal
Additional Compensation (FAC) in its measure. In that instance, we used data provided
by ETA to determine that states detected only $1.3 billion (19 percent) of the estimated
$6.9 billion in detectable overpayments from federally-funded emergency benefits.
When EUC and FAC overpayments were added to the measure, the rate dropped even
lower, to 34 percent.

The UI administrator stated the most significant barrier to the inclusion of EB into the
estimated detectable overpayments is the required changes to the BAM program, which
would require a complete rewrite of the system. Furthermore, ETA would have to
increase state BAM staff to conduct the audits of the EB claims and EUC claims. EB is
a permanent episodic program that triggers on and off in states, depending on a formula

 EB payments increased to $11.9 billion in FY 2011.
5

 Report Number 18-12-001-03-315, Recovery Act: ETA is Missing Opportunities to Detect and Collect Billions of
6

Dollars in Overpayments Pertaining to Federally-Funded Emergency Benefits, issued January 31, 2012


                                                              Controls over the detection of UI overpayments
                                                        4                       Report No. 04-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


based on the state’s unemployment rate. However, to accomplish this, it would take
approximately 6 years and cost $950,000. Unfortunately, by excluding EB from the
measure, ETA compared data that was not compatible and ETA missed opportunities
for detecting $142 million in overpayments during the three year period FYs 2008-2010,
assuming states met the ALP of 50 percent.

Subsequent to completing our fieldwork, ETA modified its ETA Overpayment Detection
and Recovery Activities report (ETA 227) to distinguish EB overpayments from State UI,
UCFE, and UCX overpayments, which will allow ETA to assess integrity activities
related solely to EB. By excluding actual EB overpayments from the existing measure,
ETA’s measure should more accurately represent states’ performances. Similarly, ETA
officials said they are developing an overpayment detection management information
measure to determine how well states are detecting EB overpayments.


Finding 2 — ETA's efforts to ensure states' compliance with NDNH cross-match
            requirements have not been fully successful.

ETA requires that states conduct a statistical survey known as BAM to estimate the rate
and amount of overpayments in the UI program. Estimated detectable overpayments
are determined using the results of the state’s BAM surveys. State benefits are cross
matched with NDNH, a nationwide system where employers report new hiring of
employees. Using NDNH cross matching helps BAM identify the largest cause of UI
improper payments — claimants who have returned to work and continue to claim UI
benefits — to incorporate in the estimated detectable overpayments. We found ETA
was not fully successful in getting states to perform required cross matches with NDNH.
UIPL 3-07 requires all states’ BAM surveys to be cross matched with NDNH beginning
the first calendar week in January, 2008. It also mandates that states ensure certain
parameters are adhered to with the cross matches, (e.g. submitting cross matches
within unique date ranges for each case, ensuring cross matches with in-state NDNH
take place, and documenting that NDNH cross matches took place).

As of May 2012, ETA reported that seven states either had not performed the cross
match or had minor technical issues. One of these states, California, which accounted
for 16 percent of total benefits paid during FYs 2008-2010, did not perform the NDNH
cross match. The six remaining states had to resolve minor technical issues with
respect to the date of employer-submitted new hires records against which the BAM
cases are matched. If NDNH cross matches are not properly completed and BAM
investigators are not able to identify benefit year employment through other investigative
tools, BAM surveys may not identify all potential overpayments that are reasonably
detectable and estimated detectable overpayments by state agencies may be
understated.

ETA officials stated they have issued UIPL No. 19-11, which provides guidance to
states regarding the recommended operating procedures for effectively using NDNH for
Benefit Payment Control operations and offered two supplemental funding opportunities


                                                  Controls over the detection of UI overpayments
                                            5                       Report No. 04-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


for states to implement the NDNH recommended operating procedures which is one of
the conditions for states to receive any additional supplemental funding. ETA officials
also stated that ETA has consistently monitored state progress in meeting the NDNH
matching requirements. ETA’s ROs conduct Methods and Procedures reviews of the
states’ BAM programs biennially. This formal biennial review and ongoing monitoring is
used to determine if the state agency's BAM operations are being administered in
compliance with BAM organizational and methodological requirements in the BAM State
Operations Handbook (ET Handbook 395), including the NDNH requirements.

According to ETA officials, the regional offices performed required monitoring of the
states’ BAM programs. In addition, ETA’s National Office and Regional Offices are
working with these states to resolve minor technical IT issues and achieve full
compliance.


Finding 3 — ETA did not always ensure data used in the measure was validated.

ETA could not ensure that actual and estimated overpayment data used in the measure
was validated. Establishing a methodology to ensure the validity of data used in the
measure is a control ETA uses for assessing how well states are doing in detecting
overpayments. ETA reported that in each of the three fiscal years we reviewed, at least
37 states (71 percent) did not validate actual overpayment data. In addition, ETA did not
ensure the reliability of estimated detectable overpayments because regional offices did
not always close mandatory reviews of states’ BAM surveys. With no assurance of data
validity, ETA cannot rely on its measure to determine which states were not meeting the
ALP, and cannot know what technical assistance to the states is needed to increase
their overpayments detections.

ETA did not always ensure data validation was conducted for actual overpayments
reported.

For FYs 2008-2010, ETA reported $4.5 billion of actual overpayments for state-funded
benefits and EB. However, the reliability of this amount was uncertain because ETA did
not ensure that states always performed data validation for the actual overpayments
they reported. According to ETA Handbook 361, the actual overpayment data is held to
a plus/minus 1 percent tolerance level and must be validated annually. In each of the
three fiscal years we reviewed, at least 37 states did not validate actual overpayment
data.

   Table 1: Data Validation for Actual Reported Overpayments
   Outcome of the Data Validation                      2008               2009        2010
   Pass                                                  15                 13          13
   Not Validated                                         37                 39          39

ETA officials said states have reported various barriers to the completion of DV
requirements, including IT resource constraints to develop the required DV extract files

                                                 Controls over the detection of UI overpayments
                                            6                      Report No. 04-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


and administrative decisions to place a higher priority on other UI program
requirements, such as the programming required for the implementation and/or
extension of temporary and episodic federal programs.

States used ETA’s Data Validation program software to ensure their results were valid.
In addition, states selected random samples to verify that these samples have been
correctly classified in the state database. However, when reviewing their verification
process we found states were using screens shots and not reviewing proper supporting
documentation. While ETA’s handbook requires states to use supporting documentation
to validate data, the handbook shows database screens as an example of how to
validate data. However, ETA officials confirmed that states should be reviewing case
files, not database screens. ETA acknowledged the need to revise the Data Validation
Handbook to emphasize the requirement to use case files as supporting documentation.

Additionally, ETA’s national office did not provide guidance to the regional offices on
monitoring the states’ data validation process and results, which would have helped to
identify these issues. ETA incorrectly assumed the states that passed the data
validation had conducted it correctly. Because states did not conduct data validation
correctly, ETA cannot ensure the reliability of the reported $4.5 billion in actual
overpayments. ETA officials stated they developed a Monitoring Guide for the regional
offices to use in conducting data validation reviews for states who reported passing data
validation populations and modules. The Monitoring Guide was issued in February
2012, subsequent to our fieldwork.

ETA regional offices did not always close mandatory reviews of states’ BAM surveys.

ETA regional offices did not always close mandatory reviews of states’ BAM surveys of
UI benefits. ETA Handbook 396 mandates the regional offices conduct reviews of
states’ BAM surveys to ensure that accurate data is collected and recorded for
analytical purposes, and to determine the adequacy of state BAM survey cases. The
regional offices conduct these reviews by first selecting a sample of each state’s BAM
surveys of UI benefits to review. The regional office then discusses any issues found
during the review with the state, and the review is entered into a pending status. Once
the state addresses the problem and the regional office verifies the issue has been
resolved, the regional office lists the review as closed. For calendar year (CY) 2008, we
found that 282 regional reviews were not properly closed, 280 of which pertained to two
regional offices. For example, one regional office could not provide supporting
documentation for any of the 120 reviews it conducted. This regional office did not
update its 2010 review results until after we performed a site visit. Furthermore, the ETA
national office did not ensure regional offices had properly closed almost 30 percent
(642 of 2,160) of reviews initiated in CYs 2008-2010. Table 2 below shows the status of
regional office reviews for CYs 2008-2010:




                                                  Controls over the detection of UI overpayments
                                            7                       Report No. 04-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



     Table 2: Status of Regional Office Reviews

                                Reviews      Reviews Not               Percentage of
     Calendar        Total      Properly        Properly                Reviews Not
     Year         Reviews        Closed           Closed             Properly Closed
     2008             891           609              282                         32%
     2009             170            82               88                         52%
     2010            1099           827              272                         25%
     Total           2160          1518              642                         30%

We determined that ETA did not have clear guidance on timeliness requirements for the
regional offices to close their reviews. Also, ETA officials at the national level were
aware of the pending regional reviews, but did not notify the respective regional
administrators to take corrective action. ETA officials indicated that guidance provided
to the regions and states was generally adequate. However, as we previously noted,
ETA issued additional guidance subsequent to our fieldwork related to reporting EB and
conducting data validation. Furthermore, ETA officials stated that regional offices
completed reviews of BAM surveys, although some of these reviews were not closed in
the UI database, in some cases due to software issues that were subsequently
corrected. If reviews are not being properly completed and closed, ETA cannot ensure
the reliability of the estimated detectable overpayments.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training continue
efforts to:

   1. Ensure the overpayment detection management information measure for EB is
      implemented and accurately report detectable overpayment activities.

   2. Ensure that states properly cross match BAM samples to NDNH.

   3. Develop and implement clear guidance for states on properly conducting data
      validation.

   4. Ensure all states conduct data validation for actual overpayment data as required
      by ETA Handbook 361.

   5. Ensure regional offices perform effective monitoring of states’ efforts for
      conducting data validation properly.

   6. Ensure regional offices timely close reviews of the states’ sampled BAM survey
      cases used in their estimates of detectable overpayments.



                                                  Controls over the detection of UI overpayments
                                            8                       Report No. 04-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that ETA personnel and state officials
extended to the Office of Inspector General during this audit. Office of Inspector General
personnel who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                 Controls over the detection of UI overpayments
                                            9                      Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                    Controls over the detection of UI overpayments
              10                      Report No. 04-12-001-03-315
              U.S. Department of Labor – Office of Inspector General




Appendices





                     Controls over the detection of UI overpayments
               11                      Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                    Controls over the detection of UI overpayments
              12                      Report No. 04-12-001-03-315
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                    Appendix A
Background

Title III of the Social Security Act requires the Department of Labor to oversee and
monitor the UI program to ensure the states operate it effectively and efficiently. The UI
program provides benefits to individuals out of work, generally through no fault of their
own. In order to be eligible for benefits, jobless workers must show that they were
separated from work through no fault of their own, met minimum length of time and
wage requirements before they were separated, and must be available for work. The
program is administered at the state level, but benefits are funded by both state and
federal monies. Although each state designs it UI program within the framework of
federal requirements, ETA is responsible for monitoring the states’ performance, among
other things. The UI program represents one of the largest benefit payment programs in
the United States.

Between April 1, 2007, and September 30, 2010, the UI program paid $174 billion in
state UI benefits and EB 7 to unemployed workers. ETA estimated that $9.4 billion of this
amount represented detectable overpayments. ETA UI national and regional offices
have responsibility for providing oversight of UI program operations. ETA established an
overpayment detection measure (measure) which compared actual overpayments
detected by the states to the overall estimated detectable overpayments as a control for
ETA to assess the states’ overpayment detection activities. Estimated detectable
overpayments are figured using results of the BAM survey, which is based on samples
of state-funded benefits only that ETA expects states to meet the ALP for the measure,
which is 50 percent. In FY 2008, ETA required that states not meeting the ALP must
take action to develop and submit a Corrective Action Plan (CAP). ETA also mandated
that states perform data validation activities to ensure the reliability of the measure.

On January 31, 2012, we issued a report concerning the UI overpayment detection
process for federally-funded benefits. The report showed that ETA had not effectively
applied key controls it has over the state-funded overpayment detection process to the
federally-funded UI emergency benefits. 8 The benefits we audited were valued at $126
billion for FYs 2008-2010. The report discussed how ETA had neither developed a valid
way to estimate overpayments in the federally-funded emergency benefits program nor
effectively measured and monitored how well states did in detecting overpayments
related to federally-funded benefits.




7
  Since FY 2009, EB has been fully federally funded. Prior to that, EB funding was evenly split between state and
federal.
8
  These emergency benefits comprise EUC, which has provided potentially 53 weeks of additional benefits to
claimants since 2008; and FAC, which has added $25 in weekly benefit payments to UI claimants since 2009.

                                                                Controls over the detection of UI overpayments
                                                         13                       Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                    Controls over the detection of UI overpayments
              14                      Report No. 04-12-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did ETA appropriately measure the effectiveness of overpayment detections for
state-funded and extended benefits?

Scope and Methodology

To accomplish our audit objective, we analyzed ETA’s written policies and procedures
over the regional offices’ responsibilities, controls over the overpayment detection
measure for state-funded benefits and EB, CAPs, BAM Case Reviews, actual
overpayment data, estimated overpayment data and Data Validation. We also
conducted interviews and analyzed the oversight and processing of CAPs, BAM, actual
and estimated overpayment data, and actual overpayment detection activities at the
ETA national office in Washington DC; ETA regional offices in Atlanta, GA and Dallas,
TX; and state offices in Little Rock, AR and Jackson, MS. Once we established potential
issues, we sent a questionnaire to the remaining regional offices and states.

The audit covered overpayments for state-funded benefits and EB reported between
FYs 2008-2010.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.

We conducted a risk analysis using the overpayment detection core measure to
determine which states fell below the ALP in FYs 2008-2010.

We also reviewed ETA national office’s data validation reports for validation years
2008-2010 to identify the results of each state’s data validation of actual state-funded
benefits and EB overpayments.

For our analysis of completed regional reviews of states’ BAM surveys, we obtained
paid-claim workload status reports from the ETA national UI office for CYs 2008-2010.
We reviewed the reports to determine if all 6 regional offices properly completed their
reviews.

We performed statistical and non-statistical tests of estimated and actual overpayment
data that Arkansas and Mississippi reported to the ETA national office to determine data
reliability. For the estimated overpayments, we pulled statistical random samples of 36
completed BAM surveys reported from October 1, 2006, to September 30, 2009, which


                                                  Controls over the detection of UI overpayments
                                            15                      Report No. 04-12-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


were extracted from universes of 1,401 and 1,427, respectively. To determine if the data
were reliable, we judgmentally selected 15 data collection instruments concerning
established overpayments from each investigation to test and ensure the data used to
estimate overpayments could be supported by state files. For the actual overpayments,
we pulled statistical random samples of 57 overpayments reported from April 1, 2007, to
March 31, 2010, which were extracted from universes of 35,649 and 57,727,
respectively. To determine if the data were reliable, we compared the type, cause,
detection method, and the amount of the overpayment to supporting documentation,
such as an employer response to the wage audit. Based on these tests and
assessments, we conclude the data are sufficiently reliable to be used in meeting the
objective.

Criteria

ETA Handbook 396

Unemployment Insurance Program Letter 3-07

ETA Handbook 361

Title III of the Social Security Act




                                                 Controls over the detection of UI overpayments
                                           16                      Report No. 04-12-001-03-315
                                    U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms

ALP        Acceptable Level of Performance

BAM        Benefit Accuracy Measurement

CAP        Corrective Action Plan

CY         Calendar Year

EB         Extended Benefits

ETA        Employment and Training Administration

EUC        Emergency Unemployment Compensation

FAC        Federal Additional Compensation

FY         Fiscal Year

IT         Information Technology

Measure    Overpayment Detection Measure

NDNH       National Directory of New Hires

UCFE       Unemployment Compensation for Federal Employees

UCX        Unemployment Compensation for Ex-Servicemen

UI         Unemployment Insurance

UIPL       Unemployment Insurance Program Letter




                                             Controls over the detection of UI overpayments
                                     17                        Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                    Controls over the detection of UI overpayments
              18                      Report No. 04-12-001-03-315
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix D
ETA Response to Draft Report




                                      Controls over the detection of UI overpayments
                                19                      Report No. 04-12-001-03-315
U.S. Department of Labor – Office of Inspector General




       Controls over the detection of UI overpayments
 20                      Report No. 04-12-001-03-315
U.S. Department of Labor – Office of Inspector General




       Controls over the detection of UI overpayments
 21                      Report No. 04-12-001-03-315
U.S. Department of Labor – Office of Inspector General




       Controls over the detection of UI overpayments
 22                      Report No. 04-12-001-03-315
U.S. Department of Labor – Office of Inspector General




       Controls over the detection of UI overpayments
 23                      Report No. 04-12-001-03-315
U.S. Department of Labor – Office of Inspector General




       Controls over the detection of UI overpayments
 24                      Report No. 04-12-001-03-315
    U.S. Department of Labor – Office of Inspector General




'


           Controls over the detection of UI overpayments
     25                      Report No. 04-12-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                    Controls over the detection of UI overpayments
              26                      Report No. 04-12-001-03-315
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix E
Acknowledgements

Key contributors to this report were Michael Yarbrough and Anthony Grice (Audit
Directors), Robert Richardson and Dwight Gates (Audit Managers), Melissa Young
(Auditor-in-Charge), Laura Brockway, Dorothy Dorsey, Cory Grode, Ronald Larry,
Sarah Pentecost, and Aaron Talbert.




                                               Controls over the detection of UI overpayments
                                         27                      Report No. 04-12-001-03-315
'




    TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

    Online:   http://www.oig.dol.gov/hotlineform.htm
    Email:    hotline@oig.dol.gov

    Telephone:      1-800-347-3756
                    202-693-6999

    Fax:            202-693-7020

    Address: Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210


'
